Open-End Consumer
Credit Agreements
And Truth In Lending
Disclosures

Effective June 6, 2014

FEDERALLY INSURED BY

PATELCO CREDIT UNION
OPEN-END CONSUMER CREDIT AGREEMENTS AND
TRUTH IN LENDING DISCLOSURES
VISA® CREDIT CARDS
SECURED VISA® CREDIT CARD
PERSONAL LINE OF CREDIT
PAY DAY LINE OF CREDIT
Effective: June 6, 2014
This booklet contains agreements and Truth in Lending Disclosures
that govern your use of the following Patelco Credit Union open-end
consumer credit programs:
Secured VISA® Classic
VISA® Gold
VISA® Platinum
Personal Line of Credit
VISA® Classic
Pay Day Line of Credit
In addition to this booklet, you will receive the following documents
before you become obligated, if you have applied and been approved
for the relevant credit program:
VISA® Gold, Platinum and Classic Programs: An account-opening disclosure that
tells you the interest rate and variable rate formula that will apply
to your account, fees applicable to your account, your credit limit,
whether the account is linked to a Patelco checking account as an
overdraft protection source, and other important information.
Secured VISA® Classic: An account-opening disclosure that tells you the
interest rate that will apply to your account, fees applicable to your
account, your credit limit, whether the account is linked to a Patelco
checking account as an overdraft protection source, and other
important information, plus a Share Pledge Addendum, which you
must sign, to pledge shares as security for the account.
Personal Line of Credit: An account-opening disclosure that tells you the
interest rate that will apply to your account, fees applicable to your
account, your credit limit, whether the account is linked to a Patelco
checking account as an overdraft protection source, and other
important information.
Pay Day Line of Credit: An account-opening disclosure that tells you the
interest rate that will apply to your account, fees applicable to your
account, your credit limit, and other important information about
your account.
Some material in this booklet applies to all of the above credit products,
while other material only applies to specific products. Material in bold
face meets Truth in Lending disclosure requirements. Please carefully read all
material applicable to the credit products you have and keep for your
records this booklet, any account opening disclosures you receive,
and any notice of changes in terms.
In this booklet, “Patelco,” “we,” and “us” mean Patelco Credit Union
and our successors and assigns. “You” means the borrower and, if
the context so indicates, any non-borrowing co-signer (guarantor)
of the credit obligation. A person who submits a credit application
as a “borrower” or “applicant” is a borrower. The singular implies the
plural if there is more than one borrower. Unless otherwise indicated,
“Card” or “Credit Card” means any VISA® credit card issued by Patelco
Credit Union. “Line of Credit” unless otherwise indicated, refers to both
Personal Lines of Credit and Pay Day Lines of Credit. “Agreements” means
the Open-End Consumer Credit Agreements and Truth in Lending
Disclosures contained in this booklet and any additional documents
that we provide to you at account opening. “Account,” unless the
context indicates otherwise, refers to an open-end credit account
established under and governed by these Agreements.
By submitting a paper, oral or electronic application for a Patelco Credit
Union Credit Card, Personal Line of Credit, or Pay Day Line of Credit and
either (a) using any access device issued to you, such as a Credit Card
(“Card”) or special loan drafts (“Loan Draft”), or (b) accepting the loan
of any funds after approval of your application, you and, if the context
so indicates, any the non-borrowing co-signer, agree that any amounts
borrowed from Patelco Credit Union (“Patelco,” “Credit Union,” “we,”
us”) now or in the future will be subject to the terms and conditions of
the applicable provisions of these Agreements. You confirm that any
Account opened under these Agreements will be used for personal,
family or household purposes and not for business purposes.

2

A. ACCOUNT ACCESS
1. Accounts governed by these Agreements are open-end or revolving
lines of credit. Once your application for an Account governed by these
Agreements is approved, you can borrow the full amount of your credit
limit, repay the principal in full or in part, and borrow again up to the
maximum as long as you are a Patelco member in good standing and
your creditworthiness remains acceptable to us. To be in good standing
you must be current on all obligations you have to Patelco as spelled out
in agreements governing specific services you have and your general
membership agreements with Patelco, and you must have a satisfactory
loan, account and membership history with Patelco.
2. On joint accounts, each borrower can borrow up to the full amount of
the credit limit without the other’s consent.
3. Advances
a. Credit Card Advances: Credit Cards will be issued as instructed
on your application. To make a purchase or get a cash advance,
you can present the Card to a participating VISA plan merchant,
to the Credit Union, or to another financial institution, and sign
the sales or cash advance draft imprinted with your Card number.
Keep sales and cash advance drafts to reconcile your monthly
statements. You can also make purchases by giving your Card
number to a merchant by telephone, over the Internet, or by
other means, in which case your only record of the transaction
may be your monthly statement. You can also access the Account
to obtain cash advances at designated ATMs, subject to additional
ATM terms at the end of this Agreement, and to obtain cash
advances via Online Banking in the form of either a deposit of
the advance amount to a Patelco account that you designate
or a check payable to you and mailed to you at the address we
have for you in our your records. You agree to keep copies of your
transaction records to verify your monthly statement.
b. Line of Credit Advances: You can request advances on a Line
of Credit in person, by mail, by telephone, by PC-24, by CALL24, at ATMs, or at a CUSC. You can ask us to issue the advance
in the form of a deposit to any Credit Union account of yours,
or a check payable to you or any third party, or an electronic
funds transfer or wire transfer payable to you or to a third party
you designate. We can require that loan advances be issued in
the form of a check payable to you and mailed to you at your
address in our records, or in the form of a deposit to a Patelco
share account of yours, if in our reasonable judgment there is a
risk that following instructions to issue loan proceeds to a third
party would pose a risk of loss to Patelco.
c. Loan Drafts: We may issue Loan Drafts on Credit Card or Personal
Line of Credit Accounts from time to time. Any Borrower may sign
a Loan Draft payable to any person or entity that accepts personal
checks. When we pay the Loan Draft, it will post to the Account as a
cash advance. There is no charge for printing or using Loan Drafts,
but if you request special handling, such as a stop payment, we may
charge you the same fee you would charge for the same service on
a regular Patelco check (share draft). Fees for special handling of
checks are shown on the Patelco Fee Schedule. If you do not wish to
use Loan Drafts, destroy them. You agree to notify us immediately
if Loan Drafts issued to you are lost or stolen and to report any
unauthorized Loan Drafts that appear on your Account statements.
We operate in an automated check-processing environment and
in almost all cases we do not physically examine checks (including
Loan Drafts) that clear. You agree that we have the right but not the
obligation to refuse to pay Loan Drafts checks that are not signed
by a Borrower, and we will not be responsible for any unauthorized
Loan Drafts if you fail to report them within 60 days after we send
you the first statement on which they appear. If you wish to stop
payment on a Loan Draft, you must notify us before the Loan Draft
is presented to us for payment, and you must provide the exact
dollar amount and Loan Draft number or we may not be able to find
it and stop it. We will not be responsible for failure to stop Loan Draft
payments if you do not give us the exact information we require in
sufficient time (at least one business day prior to presentment) for
us to act on your request. Merchant dispute rights do not apply to
Loan Drafts. If a Loan Draft clears, you must resolve any disputes
directly with the payee.

4. Overdraft Protection
a. A Credit Card or Personal Line of Credit can, if you so request
on your credit application or another authenticated written
request submitted to Patelco, be established as an overdraft
protection source on any Patelco Credit Union checking account
you designate, even if the owner(s) of the designated checking
account are not obligated to pay the Credit Card or Personal Line
of Credit. If you designate your Credit Card or Personal Line of
Credit as an overdraft protection source, loan advances can be
requested by any person authorized to transaction business on
the linked checking account by initiating any payment (debit)
transaction when sufficient funds are not available to cover it.
The Patelco Electronic Funds Transfer (EFT) Agreement and
Disclosure) (“EFT Agreement”) describes methods by which
EFT payments can be initiated on Patelco checking accounts.
Overdraft protection advances will generally be made in
multiples of $100 (or the available credit, whichever is less)
up to the amount necessary to cover the overdraft. Overdraft
protection advances are treated as Credit Card cash advances.
b. A Pay Day Line of Credit may not be designated as an Overdraft
Protection Plan on any Patelco checking (share draft) account.
5. Our clearing a Loan Draft, authorizing a Credit Card transaction, or our
issuance of a loan advance consistent with your written instructions,
or your oral or electronic instructions that we accept in accordance
with reasonable security procedures, constitutes your acceptance of
the advance and consent to the terms of this Agreement.
6. We can refuse to give you loan advances you request for any
lawful reason. We will notify you in writing of the reasons for
any refusal. Reasons for refusal include (a) your already having
borrowed up to the credit limit, (b) an adverse changes in your
financial or credit standing, (c) your failure to meet loan- or
account-related obligations to Patelco, (d) an adverse change in
your employment, (e) your insolvency, (f) your bankruptcy, (g) your
death, (h) unavailability of funds to make loans, (i) our reasonable
belief that a requested transaction is illegal or unauthorized, or (j)
our reasonable belief that you are using your Account to pay other
obligations you have to Patelco.
7. Credit Card fraud is always a risk. To protect Patelco and our
member-owners from losses associated with Credit Card fraud
claims, we reserve the right to block the purchase ability of
Credit Cards we issue. We participate in a fraud protection
system that may detect and block purchases that reflect unusual
spending patterns (although we do not warrant that we will block
unauthorized transactions before they occur). If you are planning
a major purchase for which you have available credit, or will be
traveling to a foreign country, you can minimize the risk that the
fraud detection system will block your card by notifying the Credit
Union in advance at (800) 358-8228.
8. You agree that you will not use or permit others to use any Patelco
credit product, account, access device or other Patelco product or
service, including but not limited to Credit Cards issued by Patelco, for
illegal transactions such as illegal Internet gambling. We may refuse
to honor any transaction we reasonably believe to be illegal. We may
also block or freeze accounts or decline transactions consistent with
requirements imposed by laws, regulations, or government agency
directives. However, responsibility for determining the legality of
authorized transactions rests with you, not with Patelco. You cannot
use the actual or alleged illegality of any authorized transaction as
a defense to your obligation to pay it. Your permitting use of any
Patelco credit product, account, access device or other Patelco
product or service for illegal transactions is a material breach of these
Agreements that will permit us to close the Account or discontinue the
other product or service used for the illegal transaction.
9. You are not permitted to transfer one Patelco credit Account balance
to another Patelco credit Account balance, nor may you use advances
on Patelco credit accounts to pay other obligations you have to Patelco.
10. When you use a Credit Card at a merchant point-of-sale terminal,
selecting “credit” rather than “debit” will result in the transaction being
treated as a purchase rather than a cash advance.

11. You can use a Patelco Credit Card to access Patelco checking and
savings accounts at ATMs. Please refer to the Electronic Funds
Transfer Agreement and Disclosure in the Patelco Member Handbook
for information about using Credit Cards for direct access to your
checking and savings accounts at ATMs, including information on
your potential liability for unauthorized use of your Credit Card for
this type of access.
B. RESPONSIBILITY FOR PAYMENT
1. By signing or electronically submitting an application for a Credit Card or
Line of Credit, whether designated as a borrower who will use the credit
or a non-borrowing co-signer (guarantor) who undertakes payment
responsibility for payment but will not use the credit, you agree that you
are responsible for payment of all sums borrowed and interest, fees, costs
and other charges incurred under these Agreements. You understand
that you remain responsible to the Credit Union for payment, even if a
court order or agreement to which the Credit Union is not a party, such
as a divorce decree, orders another person to pay the debt. You can be
discharged from your obligation to pay only by a court order in an action
to which we are a party or a written release executed by an authorized
officer of Patelco.
2. Each Borrower and co-signer is also obligated to repay any charges
resulting from the use of a Credit Card by an Authorized User, regardless
of whether the Authorized User stayed within the limits of permission
given to use the Credit Card. Patelco is not subject to agreements
between you and Authorized Users limiting their use of the Credit Card.
An Authorized User is any person to whom a Borrower or co-signer has
given actual, applied or apparent permission to use the Credit Card.
C. CREDIT LIMIT
We will establish a credit limit on each Account you open. We can
review your credit limits periodically and ask you to provide updated
credit information. Our review may include checking your history
with third parties such as credit bureaus and verifying information
you give us with third parties such as your employer. As part of our
review process, we can increase or decrease your credit limit, increase
or decrease your interest rate, require you to provide additional
co-signers or security, or close your Accounts to future advances at
any time. You can apply for a credit limit increase, but we have sole
discretion as to whether to grant your request. Excessive applications
may result in fees. If any Account has been inactive for six consecutive
months, we may close it. All Credit Card reissues are subject to
approval. If we make any adverse change in the terms of any Account,
or close any Account, we will provide you any notice required by law.
D. REPAYMENT TERMS
1. You promise to pay us at (a) one of our offices or (b) by mailing payment
to us at the address we designate on your periodic statement, in U.S.
Dollars with payment instruments drawn on U.S. financial institutions,
all sums advanced to you under these Agreements at any time plus a
Finance Charge that we will determine as disclosed in these Agreements
and in the Truth in Lending Account Opening Disclosure(s) provided
to you. We can accept payment instruments bearing legends such as
“payment in full” without waiving our rights. You will pay monthly unless
we agree to another payment frequency in writing. The Finance Charge is
the amount of money that you pay for the money you borrow. The interest component
of the Finance Charge is calculated by applying a periodic interest rate (which is a
fraction of the ANNUAL PERCENTAGE RATE of interest) to the outstanding balance. Fees
applicable to an Account may also be considered Finance Charges.
2. Grace Period on Credit Card Purchases: If you paid your previous statement’s
balance in full before its due date, or you had no previous balance at the
beginning of the billing cycle, you will have a grace period of 25 days on average
to pay your Credit Card purchase balance without interest finance charges. If
you do not pay your balance in full before the end of the grace period, interest
will be assessed on your entire outstanding balance including new purchases.
There is no grace period on Credit Card cash advances. Overdraft protection
advances, if authorized, are considered cash advances.
3. Interest Finance Charge Calculation
a. Credit Cards: Average Daily Balance Method, Including New Transactions
Interest is calculated separately for (a) purchase balances and balance

3

transfer balances and (b) cash advance balances. We arrive at the interest
portion of the Finance Charge for each balance type by first calculating
the average daily Account balance for the statement period. To obtain the
daily Account balances of purchases and balance transfers, we add any new
purchases or balance transfers to the previous day’s purchase and balance
transfer balance, then subtract any payments or other credits applied to the
purchase and balance transfer balance. To obtain the daily Account balances
of cash advances, we add any new cash advances to the previous day’s cash
advance balance, then subtract any payments or other credits applied to the
cash advance balance. We then total the daily balances for the statement
period and divide by the number of days in the period to get the Average
Daily Balance. This figure is multiplied by the Monthly Periodic Rate (1/12 of
the APR) to obtain the interest component of the Finance Charge.
b. Lines of Credit: Daily Balance Method Including New Transactions
The interest component of the Finance Charge is determined daily based
on the unpaid principal balance of funds loaned to you. Each day, we
determine the balance outstanding by adding any new advances or charges
to the previous day’s balance and subtracting any payments and credits.
Then we multiply the day’s balance by the Daily Periodic Rate (1/365 of
the ANNUAL PERCENTAGE RATE) to determine the interest component of
the Finance Charge for the day. At the end of the billing cycle, the interest
charges for each day of the cycle are added together to determine the
interest component of the Finance Charge during the billing cycle. Interest
continues to accrue from the day funds are loaned to you until the day they
are repaid to us.
4. Interest Rates:
a. When we approve your application, we determine the ANNUAL PERCENTAGE
RATE that will apply to your Account. Among the factors we may lawfully
consider in setting your interest rate are your credit history, whether you
maintain direct deposit to a Patelco savings or checking account, whether
you elect an automatic payment method for your Credit Card or Line
of Credit, and whether you qualify for Commitment Household status.
Available rate discount programs may change from time to time. Before you
become obligated, you will receive a separate Account Opening Disclosure
that will include the ANNUAL PERCENTAGE RATE and corresponding Periodic
Rate that will apply to your Account. If the ANNUAL PERCENTAGE RATE will
be variable, that fact, and the formula used to calculate the variable
rate, will also be disclosed to you. In addition, any discount for which you
qualify based on payment method, Household Commitment status or other
condition within your control will be disclosed to you.
b. Credit Card interest rates are variable. The Index used to set variable interest
rates on Credit Cards is the Prime Rate reported in the Federal Reserve
Bulletin on the first business day of the month prior to the month in which
the rate will take effect. For example, the Prime Rate published on the first
business day of January will determine the ANNUAL PERCENTAGE RATE that
will apply during a billing cycle that begins in February. Any introductory
discounted interest rates and the times through which they will be effective
will be disclosed to you. Changes in variable rates will apply to the entire
balance outstanding as of the date of the change. We reserve the right to
substitute a different variable rate formula if the current Index ceases to be
available, as long as the substitute formula is statistically similar as of the
time the substitution is made. We cannot, however, predict how substitute
indexes might change in the future. We will give you notice required by law
if we substitute a new variable rate formula.
c. There is no limit on the amount by which variable rates can change, except
that Patelco will not charge a rate that exceeds any maximum allowed by
law. We can decline to make an increase in an interest rate that an increase
in the Index would permit without waiving our right to change interest
rates in the future consistent with changes in the Index.
d. If you qualified for a discounted interest rate because you met a specified
condition, that fact will be stated on your Account Opening Disclosure. If you
later cease to meet that condition, your interest rate (or the margin applied
to the index to calculate a variable interest rate) will be increased by the
amount of the discount you received.
5. The Board of Directors of Patelco, at its discretion, can, unless prohibited by law,
authorize a change in the fixed interest rates or variable interest rate formulas
offered on open-end credit programs, or convert fixed-rate open-end credit
programs to variable-rate programs and vice versa. Patelco can also change
the rates offered to specific borrowers based on (a) account and credit history
review, or (b) discontinuation of rate discounts. If an unfavorable change in the
interest rate or variable rate formula applicable to your Account takes place,

4

the following rules will apply: (a) You will be given a written Rate Change Notice
at least 45 days before the change takes effect; (b) You will be able to pay off all
balances incurred within 14 days after mailing or electronic delivery date of the
Rate Change Notice at the fixed rate or under the variable rate formula in effect
as of the mailing date of the Rate Change Notice, and (c) any loan advances
taken more than 14 days after the mailing date of the Rate Change Notice
will, on the effective date stated in the Rate Change Notice, convert to the rate
stated in, or to the rate obtained applying the variable rate formula stated in,
the Rate Change Notice. These rules do not apply to Accounts that are disclosed
as Variable Rate Accounts at Account opening. A change in the interest rate on
a Variable Rate Account will apply to the entire balance outstanding when the
rate change takes effect.
6. You can prepay what you owe you in full at any time without penalty.
7. We will send you periodic statements of your Accounts.
Statements will contain information about your Accounts as
required by law. If you enroll in e-Statements, we will instead
send you e-mails each month notifying you that statements are
available for pickup on Patelco’s secure web site. E-statements
will contain all the same legally required information that is
provided with paper statements.
8. If you make payroll deduction or other automatic payments, it
remains your responsibility to make sure your payment is made
on time. A late payroll or a change in the amount of your payroll
may disrupt payroll deduction. Payment by automatic transfer may
not occur if you do not have sufficient funds to make the required
payment on the agreed date.
9. If your outstanding balance on any Account exceeds your approved
credit limit, you must, upon written notice from us, make a single
lump-sum payment sufficient to reduce the balance to the
authorized credit limit.
10. Minimum Payments:
a. Credit Cards: Your minimum monthly payment will equal 2% of your
outstanding balance or $24.00, whichever is greater. If an advance is
an Overdraft Protection Plan advance, you must pay the amount in full
by the payment due date.
b. Personal Line of Credit: Your minimum monthly payment will equal 2%
of your outstanding balance or $46.00, whichever is greater. If your
advance is an Overdraft Protection Plan advance, you must pay the
amount in full by the payment due date.
c. Pay Day Line of Credit: Your minimum monthly payment will equal 2%
of your outstanding balance or $46.00, whichever is greater.
d. All minimum payments must include over-limit amounts, delinquent
amounts and fees.
11. We may apply Account payments in any order allowed by law.
12. Increases in your outstanding Account balance increase the required minimum
payment, which will be reflected in the monthly statement.
13.You will make monthly payments on or before the due date specified
in your periodic statements.
14.Foreign Transactions: For VISA® transactions initiated in foreign
currencies, the exchange rate between the transaction currency
and the billing currency (U.S. dollars) will be (a) a rate selected
by VISA® from the range of rates available in wholesale currency
markets for the applicable central processing date, which rate may
vary from the rate VISA® itself receives, or (b) the governmentmandated rate in effect for the applicable central processing date.
If a transaction is initiated in a foreign country or foreign currency, a fee of 2%
of the transaction amount in US dollars will be assessed.
15.Payments in Foreign Currency. You agree to make all payments
to us in U.S. Dollars using payment instruments drawn on U.S.
financial institutions. We may, at our option, accept payments
in foreign currency or checks drawn on non-U.S. banks. If we do,
we may impose service and collection charges, and you agree
the charges we set will be final.
16.Payment Holds. We will promptly credit your payments as required
by law. We may, however, delay for the maximum time allowed by
law increasing your available credit or refunding credit balances until

final collection of non-cash items presented to pay your Account. A
delay in increasing your available credit or issuing a refund will not by
itself result in increased finance charges, but if an item presented for
payment on your Account is returned unpaid, we can assess finance
charges retroactive to the date the payment was credited.
17. Credit Cards: Special Considerations Regarding Merchant Transactions
a. If you made a purchase and the merchant discloses a policy
such as “no returns,” “no refunds,” “no credit without receipt,
“as is,” “store credit only,” or “all sales final,” you agree to be
bound by that merchant’s policy.
b. When you use your Account to make travel or lodging
reservations, you agree to request the merchant’s cancellation
policy and follow it if you cancel. Otherwise, the merchant may
charge you unless you can provide us with the cancellation
code the merchant is required to give you.
c. If you authorize a merchant to charge your Account for repeat
transactions with your Credit Card, you will notify the merchant
when you want to discontinue the repeat transactions or if
your Account is closed.
d. If you disagree with a transaction on your statement, you
agree to provide any information or assistance we reasonably
request. Otherwise you will pay us for any loss we incur, subject
only to any limits imposed by law.
e. A merchant, such as hotel or rental car agency, may place
a “hold” on your Account for anticipated charges. This may
result in your credit limit being unavailable for the duration of
the merchant hold, and as a result, other transactions may be
declined due to lack of available credit.
E. PAYMENT PROTECTION
Credit Insurance/Debt Protection: Patelco may allow you to obtain payment
protection through a credit insurance or debt protection product. Depending on
the payment protection products you purchase, payment protection may make full
or partial minimum monthly loan payments during your disability or involuntarily
unemployment or pay all or part of your outstanding loan balance at your death.
Purchase of payment protection is entirely voluntarily. Your decision whether
to purchase payment protection will not affect Patelco’s decision to make credit
available to you or the terms of credit offered to you. Payment protection charges,
whether characterized as insurance premiums or fees, are calculated monthly as a
percentage of the outstanding loan balance and post to your account and accrue
interest at the applicable interest rate until paid in full. Costs and other terms of
payment protection products will be disclosed on separate payment protection
plan documents that will be provided to you before you become obligated to pay
for coverage. You can cancel payment protection products at any time, and they
will be automatically canceled if you fail to pay required fees or premiums.

3. Special Services: You will pay actual costs for special handling such as overnight
shipment of replacement plastic cards.
G. CONSENSUAL AND STATUTORY LIEN ON SHARES
Secured VISA® Classic: A Secured VISA® Classic Account will be secured by a
pledge of the Patelco Credit Union share account indicated on the Share Pledge
Addendum, incorporated into this Agreement by reference. The Share Pledge
Addendum also provides disclosures applicable to the pledged shares as required
by the Truth in Savings Act.
Lines of Credit: You agree that, except to the extent prohibited by law or the terms
of a Patelco share agreement, (a) if you have not made your required payment
within ten days of its due date, we can take any Patelco shares in which you have an
interest without notice to you to collect your late payment; and (b) if you default
on your payments or otherwise default and we declare your Line of Credit due and
payable and full, we can take any Patelco shares in which you have an interest to
recover all or part of what you owe without advance notice to you. This consent
applies even to loan advances otherwise designated as “signature,” “personal,” or
‘unsecured” advances. Unless you have pledged specific shares as security for a Line
of Credit, this consent will not affect your right to withdraw funds prior to your
default and Patelco’s exercise of our rights under this consent. Your consent to our
taking shares to recover your delinquent obligations to Patelco is in addition to our
right to impose a lien on shares to the extent of your obligations to Patelco under
the California Financial Code or equitable principles of offset.
H. CHANGES IN TERMS
We can change the terms of these Agreements by giving you legally
required notice. A “change” can amend an existing term, add a new term,
or delete an old term. Unless otherwise stated, if you do not want the
change(s) to apply to you, you can close the Account and pay off under
the old terms. If you keep the Account, the change will take effect on the
date stated in the notice.
I. HONEST DEALING
You agree to tell us of any event that adversely affects your
creditworthiness or ability to pay. You agree to tell us if your name,
address, or employment changes. You agree not to request or accept
loan advances if you have reason to believe you will be unable to make
the required payments. By using a Credit Card or requesting or accepting
any loan advance, you declare under penalty of perjury that the credit
information you supplied on any oral, written or electronic credit
application or loan advance request was accurate and complete, that
your personal finances are sound, and that you know of no reason why
creditors should make claims against you or why you would become a
bankruptcy debtor now or in the future.
J. ADDITIONAL TERMS APPLICABLE TO CO-SIGNERS

d. $1.00 per page for statement copies

A co-signer is someone who agrees to be responsible for a loan but
does not necessarily obtain any loan proceeds or benefit from the loan.
As a co-signer for any Account, you must repay any amount borrowed
under the applicable terms of these Agreements up to the credit limit.
All our rights against the borrower also apply against you, including our
right to take any Patelco shares in which you have an interest if payment
default occurs. You understand that if you had not agreed to repay the
amount borrowed, we would not have approved the credit request. We
can proceed against you if the payments are delinquent even before we
proceed against the borrower. We will give you notice required by law of
any action we take that could adversely affect you. You can stop being
obligated for future advances by writing to us to that effect. But you
will still be jointly and individually liable with the borrower for amounts
outstanding at the time we receive your notice. You acknowledge receipt
of a copy of this Agreement and the separate “Notice to Co-Signer.”

e. $8.00 per transaction slip copy.

K. DEFAULT- ACCELERATION

F. OTHER CHARGES
The following fees and charges can be added to your Line of Credit balance and
accrue interest at the rates called for by this Agreement until paid in full.
1. Credit Cards:
a. Account research is charged at $25.00 per hour, waived if a Credit Union
error is revealed.
b. A late fee of $15.00 will be charged if the payment is 15 or more days late.
c. Replacement of lost, stolen or damaged plastic cards is $10.00.

2. Credit Lines:
a. Account research is charged at $25.00 per hour plus $1.00 per page for
photocopying, unless the research reveals a billing as defined by the Fair
Credit Billing Act and Consumer Financial Protection Bureau Regulation Z.
b. A late fee of the greater of $5 or 3% of the loan payment ($10.00 maximum)
is assessed if payments are received more than ten days after the due date.
c. Each Pay Day Line of Credit cash advance is charged a $10 fee. Each
advance of funds, even in the form of a check payable to a third party, is
deemed a cash advance.

1. If you default on your payments, breach any other applicable term of
these Agreements, make any false statements to obtain credit, file for
bankruptcy, or die, we can immediately declare your Account(s) in default
and require payment of the Account balance(s) in full. Even if we accept a
late or partial payment, we are not waiving our right to accelerate payment
and declare the entire unpaid balance due. Interest will continue to accrue
on the balance outstanding until paid in full.
2. Your default on this Agreement gives us the right, to the maximum
extent allowed by law, to discontinue other services to you. We may,
for example, close your Patelco checking account, or discontinue
electronic banking services such as ATM or Debit cards.

5

3. You agree that if you default on one obligation to Patelco, we
can, to the maximum extent allowed by law, declare all of your
obligations to us, including Credit Card obligations, to be in
default and accelerate them. Loans secured by your primary
residence are exempt from this provision.
L. COLLECTION COSTS
If you fail to pay as agreed, you agree to pay all reasonable collection costs Patelco
incurs prior to taking legal action. If we take legal action to collect what you owe,
you agree to pay our reasonable attorney’s fees and costs to the maximum extent
allowable by law, whether the action is a collection lawsuit, a proceeding to
enforce our rights if you become a debtor in bankruptcy, or another type of action.
We can add collection costs, including attorney’s fees, to your balance and they will
accrue interest at the rate called for by this Agreement.
M. OTHER RIGHTS APPLICABLE TO CREDIT CARDS
1. Unauthorized Use of Lost or Stolen Cards. You agree to notify us promptly of the loss,
theft or other actual or possible unauthorized use of any Card we issue to you. Call
(800) 358-8228. Although you are generally not be liable for unauthorized use (except
that you may be liable for up to $50 for unauthorized PIN-based transactions), all
Patelco members benefit if unauthorized Card use losses are kept to a minimum.
Once you report your Card as lost or stolen, you agree not to attempt to
use it. A replacement card will usually be issued to you. If you find your
Card after reporting it lost or stolen and attempt to use it, a merchant
may capture the Card and you will have to pay a card capture fee.
If you report your Card as stolen, you agree to cooperate with our
investigation. Your failure to file a police report or otherwise cooperate
with our investigation may give us reasonable grounds to deny your
claim of unauthorized use. Although we will not close your Account
solely because you exercise your rights to report unauthorized activity
or other errors under the Fair Credit Billing Act, our determination that
your report of unauthorized Card activity was not made in good faith
may be grounds for closing your Account to future use. If we decide that
you have an excessive number of lost or stolen cards, we may not issue
a replacement card or open a new account for you.
2. Merchant Disputes. We are not responsible for the refusal of any merchant or other
financial institution to honor you Card. We are subject to good faith claims and
defenses recognized by law (other than tort claims) arising out of goods or services
you purchase with the Card, but only if you have made a good faith attempt but have
been unable to obtain satisfaction from the plan merchant and (a) your purchase was
made in response to an advertisement we sent or participated in sending you; (b) your
purchase was made from a merchant we own or operate; or (c) your purchase cost more
than $50 and was made from a merchant in your state or within 100 miles of your
home. We are relieved from any liability if you have already paid us for the disputed
transaction. Any other disputes you must resolve directly with the merchant.
3. Merchant Credits: A merchant who honors your Card and gives you credit for
returns or adjustments will do so by sending us a credit slip which we will post
to your Account. Subject to Section D.16 of this Agreement, if your credits and/
or payments exceed what you owe, we will hold and apply this credit balance
against future transactions, or refund it on your written request if it is $1.00.
4. Platinum VISA® Rebates: If you have a VISA® Platinum Account, you
may earn cash rebates in U.S. dollars when you use your Card for
purchases. Rebate terms are subject to change without notice.
a. The rebate period runs annually from November 16 to
November 15. The rebate to be paid is calculated each year on
November 15. A rebate is paid only if you have earned $1.00 or
more in rebates. The rebate will be paid shortly after the end
of the rebate period in the form of a deposit to your Patelco
Tiered Savings account. If there is more than one borrower on
your Platinum VISA Account, the rebate will be paid to the first
cardholder listed on the billing statement for the Account. You
must notify us if an expected rebate has not been paid.
b. You begin earning rebate credit with the first purchase during
a rebate period. No rebates are earned for cash advances. The
rebate amount equals 1.0% of the purchase amount. No rebates
are earned for cash advances or balance transfers. Your monthly
statement will show the amount of purchases during the billing
cycle that are eligible for rebates. We can make adjustments due
to account activity, such as returns of merchandise.
c. If you close your Platinum VISA® account before the end of a
rebate period, you forfeit earned but unpaid rebates.

6

d. If your Platinum VISA® becomes delinquent at the time a rebate
is scheduled to be paid, we may, at our sole option, apply the
rebate to reduce the balance you owe instead of depositing it to
your Tiered Savings account.
e. If your Platinum VISA® Card is lost or stolen, earned rebates will
credited to your new account number
5. U-Choose VISA® Gold Rewards: If you have a Patelco VISA® Gold
Credit Card Account, you may participate in this program for a $25
annual fee. Program terms are available upon request by contacting
Patelco Credit Union.
6. Tax Consequences of Credit Card Reward Programs: We make no
warranties or representations regarding possible tax implications
of VISA® Platinum rebates or VISA® U-Choose Rewards. Consult
your tax advisor.
N. TERMINATION
1. We may terminate these Agreements and close your Accounts at any
time by sending you a written notice of the termination and the lawful
business reasons for so doing.
2. We can close your Accounts without prior notice if you fail to pay
on time, or we have evidence or a reasonable belief that you are
unable or unwilling to repay your Account balance. A significant increase in your obligations, your filing for bankruptcy relief, your unemployment, your failure to meet other obligations you have to us,
or your death, are examples of circumstances that could lead us to
close your Account without notice. We will give you advance notice
required by law for other terminations. If we close your Accounts
with or without notice due to your breach of this Agreement or any
other agreement you have with us, your death or your bankruptcy,
we can demand that you pay off the entire balance at once.
3. You can close your Accounts by sending us a written request and,
if they have been issued to you, cutting all issued Cards and Loan
Drafts in half and returning them to us.
4. If we or you close your Account, you agree to surrender any issued
Cards and Loan Drafts to us. The Cards and Loan Drafts remain our
property. Even if your Accounts are closed, you must still pay your
outstanding balance in full under the terms of these Agreements.
5. If you terminate a Share Pledge VISA® Credit Card Account, funds in
the share account pledged to secure payment will become available to you as your balance on this Account is paid down. When
the Account closed and is paid in full, the pledged share account
will also be closed and any remaining balance transferred to your
Patelco Tiered Savings account.
O. PROMOTIONAL SKIP PAYMENTS
From time to time, we may offer you the opportunity to skip a payment on your
Account(s). The offer, if made, will be reflected on your periodic statement in the
form of a zero minimum payment, a message telling you that you can skip your
payment for that month, and an announcement of the fee, if any, for the skipped
payment. Your failure to make a payment will constitute your acceptance of the
offer and authorize us to deduct the skip payment fee, if any, from any Patelco
savings or checking account in which you have available funds. If you do not have
available funds to cover the fee, it will be added to your Account balance and accrue
interest at the rate called for by this Agreement. Interest will continue to accrue at
the interest rate then in effect for the related Account during the skip pay period.
On a joint loan, either borrower acting alone may request the skip payment.
P. GENERAL TERMS
These Agreements reflect your contract with Patelco with respect to
all transactions you make, even if sales, cash advance, credit slips or
other documents you receive for merchants or other third parties to
whom you transfer loaned funds contain different terms. Patelco is
not subject to agreement between you and third parties except to the
extent you exercise merchant dispute rights available under Consumer
Financial Protection Bureau Regulation Z or local law. Amendments
to this Agreement are effective only if (a) implemented by a Patelco
change in terms notice, (b) ordered by a court in an action to which
Patelco is a party, or (c) agreed to in writing by you and an authorized
agent of Patelco. If any provision of this Agreement is invalid, the other
parts will remain in effect. Applicable federal and California law and
regulation will govern interpretation of this Agreement.

BILLING RIGHTS:
KEEP THIS NOTICE FOR FUTURE USE

YOUR RIGHTS IF YOU ARE DISSATISFIED WITH YOUR
CREDIT CARD PURCHASE

State and Local Law: The following summary of your rights under
federal law does not cover all rights you may have under state or local
law. If, under state or local law, you have a longer period of time in
which to send an inquiry to us regarding your statement, reliance
on any such longer time period may result in your losing important
rights that could be preserved by acting more quickly under federal
law. State or local provisions, if any, only become operative upon
the expiration of the time period provided by Consumer Financial
Protection Bureau Regulation Z for submitting a proper error notice.

If you are dissatisfied with the goods or services that you purchased with your credit
card, and you have tried in good faith to correct the problem with the merchant, you
may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your
current mailing address, and the purchase price must have been more than $50. (Note:
Neither of these are necessary if your purchase was based on an advertisement we
mailed to you, or if we own the company that sold you the goods or services.)

This notice tells you about your rights and our responsibilities under
the Fair Credit Billing Act.

2. You must have used your credit card for the purchases. Purchases made with
cash advances from an ATM or with a check that accesses your credit card
account do not qualify.

WHAT TO DO IF YOU FIND A MISTAKE ON YOUR STATEMENT

3. You must not yet have fully paid for the purchase.

If you think there is an error on your statement, write us at P.O. Box 8020,
Pleasanton, CA 94588.

If all of the criteria above are met and you are still dissatisfied with the purchase,
contact us in writing at:

In your letter, give us the following information:
•

Account information: Your name and account number

•

Dollar amount: The dollar amount of the suspected error

•

Description of problem: If you think there is an error on your bill, describe what
you believe is wrong and why you believe it is a mistake.

You must contact us:
•

Within 60 days after the error appeared on your statement

•

At least 3 business days before an automated payment is scheduled, if you want to
stop payment on the amount you think is wrong.

Patelco Credit Union, P.O. Box 8020, Pleasanton, CA 94588
While we investigate, the same rules apply to the disputed amount as discussed
above. After we finish our investigation, we will tell you our decision. At that point,
if we think you owe an amount and you do not pay, we may report you as delinquent.
NOTICE TO CALIFORNIA RESIDENTS
Under California law, our right to recover credit extended to you
for credit card purchases is subject to any defenses that you have
against the seller if:
1. The purchase price of the item in question exceeded $50;

You must notify us of any potential errors in writing. You may call us, but if you do, we
are not required to investigate any potential errors and you may have to pay the amount
in question.

2. The purchase was made in California;

WHAT WILL HAPPEN AFTER WE RECEIVE YOUR LETTER

4. You notify us in writing of the name of the seller, the date of
purchase, the price paid, the goods or services purchased, and the
acts that you took to obtain satisfaction from the seller.

When we receive your letter, we must do two things:
•

Within 30 days of receiving your letter, we must tell you that we received your
letter. We will also tell you if we have already corrected the error.

•

Within 90 days of receiving your letter we must either correct the error or explain
to you why we believe the bill is correct.

While we investigate whether or not there has been an error:
•

We cannot try to collect the amount in question, or report you as delinquent
on that amount.

•

The charge in question may remain on your statement, and we may continue
to charge you interest on that amount.

•

While you do not have to pay the amount in question, you are responsible for
the remainder of your balance.

•

We can apply any unpaid amount against your credit limit.

After we finish our investigation, one of two things will happen:
•

If we made a mistake: you will not have to pay the amount in question or any
interest or other fees related to that amount.

•

If we do not believe there was a mistake: We will send you a statement of the
amount you owe and the date the payment is due. We may then report you as
delinquent if you do not pay the amount we think you owe.

If you receive our explanation but still believe your bill is wrong, you must write to
us within 10 days telling us that you still refuse to pay. If you do so, we cannot report
you as delinquent without also reporting that you are questioning your bill. We must
tell you the name of anyone to whom we reported you as delinquent, and we must let
those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the
amount you question even if your bill is correct.

3. You made a written demand on the retailer and made a good faith
attempt to get satisfaction of your complaint; and

The amount to which the defense applies is limited to the amount
outstanding on the purchase as well as late charges and finance
charges at the time we receive the written demand.
This remedy is the only one you have against us. Your rights are limited
to those circumstances outlined in California Civil Code § 1747.90.
Purchases with cash or check are not included in this section even
though you used your credit card to validate your credit.
We cannot penalize you by either giving out unfavorable credit
information about you or canceling or refusing to renew your credit
card solely because you obtained relief under the remedies you have
for correcting billing errors.
ATM DISCLOSURE
This part of this disclosure includes special provisions applicable to
the use of a Credit Card to obtain cash advances at Automated Teller
Machines (ATMs). This disclosure addresses only credit card cash
advances at ATMs. Refer to your separate Electronic Funds Transfer
disclosure for a complete disclosure of terms applicable to the use of
plastic cards issued by Patelco, including any Credit Card issued under
this Agreement, to access Patelco savings and checking accounts.
Available Services
The ATM you use may restrict the number of credit card transactions
and the amount of each transaction. Each ATM owner determines hours
of service, but ATMs are generally available 24 hours a day, 7 days a
week, subject to periodic closures for maintenance.
Documentation of Transactions
The ATM may generate a receipt for cash advance transaction, and ATM
cash advance transactions will appear on your monthly statement.

7

Credit Union Liability
We will not be liable for failure to complete cash advance transactions if:
1. Your Account does not have available credit to make the transaction;
2. The ATM system was not working properly and you knew about the
breakdown when you started the transaction;

PO BOX 8020
Pleasanton, CA 94588

3. Your personal identification number (PIN) or Card has been
reported lost or stolen and we have blocked its use;

800.358.8228 patelco.org

4. Circumstances beyond our control, such as communication
malfunction, fire, flood, electrical failure, or malfunction of
the central data processing facility prevent completion of the
transaction despite our reasonable precautions; or
5. We establish other lawful exceptions and notify you of them.
Security
Do not use an ATM machine unless it appears safe to do so. Do not key
in your PIN if someone is looking. Take your Card, receipt and money
when you are done, put your money away quickly, and leave the site.
NOTICE TO CO-SIGNER
(Traduccion en Ingles Requiere Por Lay Ley)
You are being asked to guarantee this debt. Think carefully before
you do. If the borrower doesn’t pay the debt, you will have to. Be
sure you can afford to pay if you have to, and that you want to
accept this responsibility.
You may have to pay up to the full amount of the debt if the
borrower does not pay. You may also have to pay late fees or
collection costs, which increase this amount.
The creditor can collect this debt from you without first trying to
collect from the borrower. The creditor can use the same collection
methods against you that can be used against the borrower, such
as suing you, garnishing your wages, etc. If this debt is ever in
default, that fact may become part of your credit record.
This notice is not the contract that makes you liable for the debt.
AISO PARA EL FIADOR
(Spanish Translation Required by Law)
Se le está pidiendo que garantice esta deuda. Piénselo con cuidado
antes de ponerse de acuerdo. Si al persona que ha pedido este
préstamo no pagó la deuda, usted tendrá que pagarla. Esté seguro de
que usted podrá pagar si sea obligado a pagarla y de que usted desea
aceptar la responsabilidad.
Si la persona que ha pedido el préstamo no paga la deuda, es posible
que usted tenga que pagar la suma total de la deuda, mas los cargos
por tardarse en al pago o el costo de cobranza, lo cual aumenta el total
de esta suma.
El acreedor (financiero) puede cobrarle a usted sin, primeramente,
tratar do cobrarle al deudor. Los mismos metodos de cobranza que
pueden usarse contra el deudor, podran usarse contra usted, tales
como presentar una demanda en corte, quitar parte de su sueldo, etc.
Si alguna ves no se cumpla con la obligación de pagar esta deuda, se
puede incluir esa información en la historia de credito de usted.
Este aviso no es el contrato mismo en que se le scha a usted la
responsabilidad de la deuda.

© 2014 Greene & Allison LLP. All rights reserved.

PCUM005-0614

